                                              OFFICE OF THE CHIEF 

                                              FINANCIAL OFFICER



Office of Inspector General—Office of Audit




                                              THE DEPARTMENT OF LABOR'S COMPLIANCE
                                              WITH THE IMPROPER PAYMENTS ELIMINATION
                                              AND RECOVERY ACT OF 2010 IN THE FISCAL
                                              YEAR 2011 AGENCY FINANCIAL REPORT




                                                                    Date Issued:     March 15, 2012
                                                                 Report Number:    22-12-016-13-001
                                                            U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Appendices.................................................................................................................. 13

         Appendix A Background ..................................................................................... 15

         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 17

         Appendix C Acronyms and Abbreviations .......................................................... 19

         Appendix D OCFO Response to Draft Report .................................................... 21

         Appendix E Acknowledgements ......................................................................... 23





                                                                      IPERA Compliance in Agency Financial Report
                                                                                    Report No. 22-12-016-13-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                     IPERA Compliance in Agency Financial Report
                                   Report No. 22-12-016-13-001
                                                   U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                         Office of Inspector General
                                                 Washington, D.C. 20210




March 15, 2012

                             Assistant Inspector General’s Report



James L. Taylor
Chief Financial Officer
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

The Office of Management and Budget (OMB) issued government-wide guidance for
implementation of the Improper Payments Elimination and Recovery Act of 2010
(IPERA) on April14, 2011.1 The guidance updated requirements for measurement and
remediation of improper payments. The Department is required to report on improper
payments in its annual Agency Financial Report (AFR) and the Office of the Inspector
General (OIG) is required to review agency reporting.

On July 22, 2010, the President signed IPERA2 into law. IPERA amended the Improper
Payments and Information Act of 2002 (IPIA)3 to prevent the loss of billions in taxpayer
dollars.

Under IPERA, the head of each agency shall periodically review and identify all
programs and activities it administers that may be susceptible to significant improper
payments based on guidance provided by the Director of OMB.4 IPERA generally
defines significant improper payments as $10 million of all program or activity payments
made during the FY reported and 2.5 percent of program outlays, or $100 million.5 For
each program and activity identified, the agency is required to produce a statistically
valid estimate or an estimate that is otherwise approved by OMB, of the improper
payments and include such estimates in the accompanying materials to the annual
financial statements of the agency.6


1
  OMB Memorandum M-11-16, Issuance of Revised Parts I and II to Appendix C of OMB Circular A-123. 

2
  Public Law No. 111-204, 124 Stat. 2224 (2010). 

3
  Public Law No. 107-300, 116 Stat. 2350 (2002). 

4
  Public Law No. 111-204 § 2(a)(1), 124 Stat. 2224 (2010). 

5
  Pub. L. No. 111-204 § 2(a)(3), 124 Stat. 2224-2225 (2010). However, with respect to fiscal years 

following September 30th of a fiscal year beginning before fiscal year 2013 as determined by the Office of 

Management and Budget, that improper payments in the program or activity in the preceding fiscal year 

shall be considered significant if they may have exceeded $10 million of all program or activity payments 

made during that fiscal year and 1.5 percent of program outlays; or $100 million. 

6
  Pub. L. No. 111-204 § 2(b), 124 Stat. 2224, 2225 (2010). 


                                                             IPERA Compliance in Agency Financial Report
                                                     1                     Report No. 22-12-016-13-001
                                                  U.S. Department of Labor – Office of Inspector General



The agency is required to prepare a report on actions it took to reduce improper
payments for programs or activities with significant improper payments.7 The report
must specify, among other things (1) a description of the causes of improper payments,
actions planned or taken to correct those causes, and the planned or actual completion
date of the actions taken to address those causes and (2) program- and activity-specific
targets for reducing improper payments that have been approved by the Director of
OMB.8

With respect to improper payments identified in recovery audits required by IPERA,9 the
agency is required to report on all actions it took to recover improper payments,
including

    1. a discussion of the methods used to recover overpayments;

    2. the amounts recovered, outstanding, and determined not collectable, including
       the percent such amounts represent of the total overpayments of the agency;

    3. a justification for determining certain overpayments are not collectable;

    4. an aging schedule of the amounts outstanding;

    5. a summary of how recovered amounts are disposed of; and

    6. a discussion of any conditions giving rise to improper payments and how those
       conditions are being resolved.10

The agency is also required to provide a justification if it determined that performing
recovery audits for any program or activity was not cost-effective.11

Objective

Our objective was to review the Improper Payments Information section in the FY 2011
AFR and determine whether the Department met all requirements of IPERA. In
addition, we evaluated the Department’s (1) accuracy and completeness of reporting
and (2) performance in reducing and recapturing improper payments.




7
  Pub. L. No 111-204 § 2(c), 124 Stat. 2224, 2225-2226 (2010). 

8
  Pub. L. No. 111-204 § 2(c)(1) and (4), 124 Stat. 2224, 2225-2226 (2010). 

9
  IPERA generally requires such audits to be conducted, unless prohibited by law, for each program and 

activity of the agency that expends $1 million or more annually if conducting such audits would be cost-

effective. Pub. L. No. 111-204 § 2(h), 124 Stat. 2224, 2228-2229 (2010). 

10
   Pub. L. No. 111-204 § 2(d), 124 Stat. 2224, 2226 (2010). 

11
   Pub. L. No. 111-204 § 2(d)(7), 124 Stat. 2224, 2227 (2010). 



                                                          IPERA Compliance in Agency Financial Report
                                                    2                   Report No. 22-12-016-13-001
                                                 U.S. Department of Labor – Office of Inspector General




Specifically, the OIG was to answer the following – has the Department:

     1. published a Performance and Accountability Report (PAR) or AFR for the most
        recent FY and posted that report and any accompanying materials required by
        OMB on the agency website?

     2. conducted a specific risk assessment for each program or activity that conforms
        with Section 3321 of Title 31 U.S.C. (if required)?

     3. published improper payment estimates for all programs and activities identified
        as susceptible to significant improper payments under its risk assessment (if
        required)?

     4. published programmatic corrective action plans in the PAR or AFR (if required)?

     5. published, and has met, annual reduction targets for each program assessed to
        be at risk and measured for improper payments?

     6. reported a gross improper payment rate of less than 10 percent for each program
        and activity for which an improper payment estimate was obtained and published
        in the PAR or AFR?

     7. reported information on its efforts to recapture improper payments?12


Results

In the FY 2011 Agency Financial Report, the Department complied with item numbers 1,
2, 4, and 7. Regarding item number 4, while the Department published the required
improper payment estimates, results from recent OIG audits indicate that improvements
are needed in the methodologies used for those estimates.

The Department did not meet the annual reduction targets for the two programs
assessed to be at risk – Unemployment Insurance and WIA grants – and therefore was
not in compliance with item number 5. The Department also did not comply with item
number 6, as the improper payment rate of 12.0 percent reported for the UI benefit
program exceeded the OMB target rate of less than 10 percent.

In addition to reporting on the Department’s compliance with the IPERA reporting
requirements, we have included observations regarding improvements that can be
made in the Department’s measurement and reporting of improper payments.
12
  OMB Circular A-123, Management’s Responsibility for Internal Controls, Appendix C, Part II,
Compliance with the Improper Payment Requirements, April 2011. As previously noted in this report,
IPIA has been amended by IPERA.


                                                         IPERA Compliance in Agency Financial Report
                                                  3                    Report No. 22-12-016-13-001
                                              U.S. Department of Labor – Office of Inspector General




       1. Did the Department publish its AFR for the most recent FY and post that
          report and any accompanying materials required by OMB on the agency
          website?

          The Department published its AFR for FY 2011 on November 14, 2011. The
          report and accompanying materials required by OMB are posted on the agency
          website at:
          http://www.dol.gov/_sec/media/reports/annual2011/2011annualreport.pdf

       2. Did the Department conduct a specific risk assessment for each program
          or activity that conformed with Section 3321 of Title 31 U.S.C (if required)?

          The Department conducted a risk assessment of its major programs and
          activities. Two programs – Unemployment Insurance (UI) benefit program and
          Workforce Investment Act (WIA) grants – were designated as at risk. The UI
          benefit program had annual improper payments exceeding both $10 million and
          2.5 percent of annual program payments, or $100 million. The WIA grant
          program is classified as at-risk in OMB Circular A-123, Appendix C, due to its
          annual level of expenditures, although the Department reported that its risk
          assessment does not support such a high-risk designation.

          The Department also reported that it performed risk assessments and/or detailed
          testing on all its other significant programs during FY 2011 and classified them as
          low risk. These programs included Federal Employees’ Compensation Act
          (FECA), Black Lung Disability Trust Fund, Energy Employees Occupational
          Illness Compensation Program, Longshore and Harbor Workers’ Compensation
          Act, District of Columbia Compensation Act, and State Unemployment Insurance
          and Employment Service (ES) Operations.

3. 	      Did the Department publish improper payment estimates for all programs
          and activities identified as susceptible to significant improper payments
          under its risk assessment (if required)?

          The Department published improper payment estimates for the UI benefit
          program and Workforce Investment Act (WIA) grants, as required. The
          Department was not required to publish improper payment estimates for the
          FECA program based on a waiver it received from OMB. According to the waiver,
          reporting on the FECA program is to resume in the Department’s FY 2012 AFR.

          UI Benefit Programs

          The UI’s estimated annual improper payments for 2011 were $13.70 billion,
          consisting of $12.96 billion in overpayments and $742 million in underpayments.
          However, a recent OIG audit (Recovery Act: ETA Is Missing Opportunities to
          Detect and Collect Billions of Dollars in Overpayments Pertaining to Federally

                                                      IPERA Compliance in Agency Financial Report
                                               4                    Report No. 22-12-016-13-001
                                                  U.S. Department of Labor – Office of Inspector General



        Funded Emergency Benefits, Report No. 18-12-001-03-315, issued January 31,
        2012) noted several concerns with how the improper payment estimate was
        determined.

        Improper payment rates for the UI benefit program are estimated from the Benefit
        Accuracy Measurement (BAM) program. BAM includes the three largest
        permanently authorized unemployment compensation (UC) programs: State UI 13 ,
        Unemployment Compensation for Federal Employees, and Unemployment
        Compensation for Ex-Service Members. BAM investigators in each state conduct
        comprehensive audits for randomly selected weekly samples of paid and denied
        claims. Because the claims processes and eligibility requirements are very
        similar for the additional benefits paid to unemployed individuals under the
        Extended Benefits (EB), Emergency Benefits (EUC08), and Federal Additional
        Compensation (FAC) programs, ETA assumes the estimated improper payments
        rates for these programs are the same as the BAM-determined rate for the three
        permanent programs. In FY 2011, the Department reported that UI outlays
        included $52.0 billion in EUC08, $11.7 billion in EB, and $1.4 billion in FAC.
        However, ETA has not done any testing to confirm whether its assumption is
        valid. We believe the estimate could have significantly misstated the amount of
        improper payments related to the federal programs for the following reasons.

        •	      The federal and state programs have different eligibility requirements. For
                example, people who have part-time jobs, but make below certain dollar
                thresholds, may be eligible for federally-funded benefits but not state-
                funded benefits.

        •	      Considering the severity of the economic downturn, there is a greater risk
                that displaced workers will continue to claim benefits even when re-
                employed to subsidize their lessened earnings. Bureau of Labor Statistics
                News Release dated August 26, 2010, showed that the economic
                downturn from 2007 to 2009 was far more severe than previous
                recessions. Only 45 percent of displaced workers who were subsequently
                re-employed reported earning as much or more than they did prior to
                displacement, and 36 percent reported earning losses of 20 percent or
                greater. This suggests a heightened risk that claimants will claim benefits
                after returning to work. Claiming benefits after returning to work represents
                the largest cause of UI overpayments.

        At a minimum, the Department needs to disclose the limitations of its sampling
        methodology in its report in the AFR. Meanwhile, ETA should consider revising
        its current BAM sample to include all UI benefits regardless of funding source. By
        doing so, ETA would ensure that future overpayment estimates cover all UI
        programs, including any temporary federally-funded emergency programs that
        may be put into place.
13
 Included in the UI program are the 50 states and Puerto Rico, US Virgin Islands and the District of
Columbia. The US Virgin Islands does not participate in BAM.

                                                          IPERA Compliance in Agency Financial Report
                                                    5                   Report No. 22-12-016-13-001
                                    U.S. Department of Labor – Office of Inspector General



We made recommendations to ETA in the above-referenced report; therefore, we
are not making recommendations in this report.

WIA Grants Program

OMB classifies the WIA grants program as high risk due to its level of program
outlays. Based on OMB’s classification as high risk and consistent with the
Department’s strategic plan to review all programs, an estimated improper rate
and amount was computed for the WIA program in FY 2011. The WIA grants
program’s estimated annual improper payments for 2011 were $12.4 million.

The $12.4 million computation was based on an analysis of improper payment
information, including questioned costs identified in OMB Circular A-133 Single
Audit Act reports (A-133 reports), FY 2008 – FY 2010 ETA monitoring reports,
and Department of Labor OIG and Government Accountability Office audit
reports issued for the three most recent years ending March 31, 2011.

The Department stated that the use of A-133 data was based on OMB’s
recommendation, citing OMB Circular A-123, Appendix C where OMB suggests
that agencies use A-133 data in their estimates of improper payments. The
Department concludes based on this that the methodology it used has been
approved by OMB. The Department also noted that its methodology included
questioned costs from other sources such as ETA monitoring reports, and OIG
and GAO audit reports.

However, we believe the Department’s methodology for estimating WIA improper
payments could be improved. Questioned costs in A-133 reports were the
largest source of improper payment information, based on the Department’s
determination that such questioned costs could be used as a proxy for improper
payments. However, A-133 audits are not designed to determine the total
amount of improper payments made by a grantee. Furthermore, A-133 audits
typically do not project improper payments identified in audit testing to determine
total estimated improper payments for the grantee. A-133 audits also do not test
all programs every year. The Department attempted to compensate for this by
including the results of OIG and GAO audits as well as its own reviews. However,
this does not effectively fill the gap in estimating improper payments created by
relying on A-133 audits, as OIG and GAO audits likewise are not designed to
measure improper payments.

OIG recognizes that, unlike the UI benefit program, data are not readily available
to allow the Department to directly sample grant payments to develop a
statistically valid estimate of improper payments. The Department should
continue to evaluate its alternate methodology and consider methods for
improving it. The Department should also fully disclose the limitations of the data
used in its estimation.



                                            IPERA Compliance in Agency Financial Report
                                     6                    Report No. 22-12-016-13-001
                                    U.S. Department of Labor – Office of Inspector General



FECA Program

In FY 2009, the Department requested and received a waiver from OMB for relief
from reporting FECA improper payment estimates. OMB granted this waiver
based on FECA documenting a minimum of two consecutive years of improper
payments that were less than $10 million. According to the waiver issued by
OMB, dated November 26, 2008, the next year for reporting on this program will
be FY 2012, to be submitted in the Department’s FY 2012 AFR.

The Department stated that it believes the waiver is indefinite and that while the
earliest reporting that might be required for FECA is the FY 2012 AFR, this is
subject to the results of the FY 2011 IPIA risk assessment of FECA. This risk
assessment indicated that FECA has not become more risk susceptible.

OIG disagrees with the Department’s assessment that the waiver is indefinite.
As stated in the November 26, 2008, memorandum from OMB to the
Department:

       In accordance with Appendix C to Office of Management and
       Budget (OMB) Circular A-123, Part I, Section K, if any agency
       program has documented a minimum of two consecutive years of
       improper payments that are less than $10 million annually, the
       agency may request relief from the annual reporting requirements
       for this program. Based on meeting this requirement from fiscal
       year (FY) 2005 through FY 2008 for FECA, the Department of
       Labor’s (DOL) request for annual reporting relief is approved. This
       approval is effective for FY 2009 reporting purposes. Therefore,
       the next year for reporting on this program will be FY 2012, to be
       submitted in DOL’s FY 2012 Performance and Accountability
       Report.

To meet the requirements of IPERA, we believe the Department will need to
improve its improper payment estimation methodology for the FY 2012 report. As
detailed in our recent audit report (Office of Workers Compensation Program’s
(OWCP) Efforts to Detect and Prevent FECA Improper Payments Have Not
Addressed Known Weaknesses, Report No. 03-12-001-04-431, issued February
15, 2012), the FECA improper payment estimates reported in FYs 2005 to 2008
(and used to obtain the OMB waiver) fluctuated widely, from $3.3 million in FY
2005 down to $722,000 in FY 2006, and then up to $2.6 million in FY 2007, and
down again to $500,000 in FY 2008. These estimates appear to be low in
comparison to the fraud and abuse found by OIG investigations. For example, in
FY 2008, Department of Labor OIG investigations alone identified more than $6
million in restitution for FECA compensation and medical fraud.

Additionally, in FY 2010, our audit work on OWCP’s FECA match with Social
Security Administration death records identified more than $690,000 in improper

                                            IPERA Compliance in Agency Financial Report
                                     7                    Report No. 22-12-016-13-001
                                           U.S. Department of Labor – Office of Inspector General



       payments; and OIG investigations identified more than $1.3 million in restitution
       for FECA fraud. Other OIGs, such as the U.S. Postal Service, have FECA cases
       as well that we did not quantify.

       Finally, OWCP’s previously used methodology did not encompass all the risks
       associated with improper payments such as those identified in GAO’s February
       2008 audit — late or no notice of when claimants returned to work; late or no
       notice of when claimants or their survivors died; unverified self-reported data on
       wage earnings and other federal benefits; and inaccurate data from employing
       agencies.

       The above conditions indicate that OWCP may need to explore other methods to
       ensure its estimates provide sufficient information to enable the agency to make
       informed judgments on the magnitude of improper payments in the FECA
       program. We made recommendations to OWCP in the above-referenced report;
       therefore, we are not making recommendations in this report.

       The Department questioned the relevance of including historical information
       dating back to 2005 in this report on the Department’s FY 2011 IPIA compliance.
       OIG included these results from our recent audit of FECA improper payments as
       evidence that past estimates of FECA overpayments were likely understated and
       that improvements are needed to the FECA improper payment estimation
       methodology.


4. 	   Did the Department publish programmatic corrective action plans in the
       PAR or AFR (if required)?

       The Department published aggressive and robust corrective action plans to
       reduce and collect improper payments. For the UI benefit program, ETA
       developed a strategic plan to address several root causes of improper payments.
       The plan included Benefit Year Earnings strategies designed to aid in the early
       detection of overpayments resulting from claimants who returned to work and
       continued to claim UI benefits – the leading cause (30 percent) of all
       overpayments during the period July 2010 to June 2011. The Department also
       included strategies addressing separation issues (claimants who were ineligible
       for UI benefits because they either voluntarily quit their jobs or were discharged
       for cause), and ES registration issues (claimants who were required to register
       with state ES but who were not actively registered). The Department reported
       that it provided technical assistance and targeted resources at the state level.
       For example, ETA identified states with persistently high improper UI payment
       rates as “High Priority” and stated it will provide targeted and customized
       technical assistance to improve their performance. For FY 2011, six states were
       identified to participate in the initiative – Arizona, Colorado, Indiana, Louisiana,
       Virginia and Washington.



                                                   IPERA Compliance in Agency Financial Report
                                             8                   Report No. 22-12-016-13-001
                                           U.S. Department of Labor – Office of Inspector General



       We did note that the Department did not include a strategy to address work
       search issues – the second leading cause of improper payments. However, in
       ETA’s Report on Improper Payments in the UI Program submitted to the
       Inspector General on March 12, 2012, ETA stated it had hired a contractor to
       review state laws, policies and practices for work search and gathered qualitative
       information related to work search practices from a sample of 11 states (Arizona,
       Colorado, Florida, Illinois, Louisiana, Maine, New York, Ohio, Texas, Virginia and
       Wisconsin). The contractor has prepared a draft report which is under review by
       ETA. ETA also announced a Work Search pilot opportunity and awarded
       supplemental grant funding of $500,000 to New York. ETA facilitated a High
       Priority State – Washington – to serve as a project design partner with New York
       and is working to include Colorado, another high priority state, in the project.

       For WIA grants, the Department indicated the major types of errors found in the
       WIA program were primarily administrative in nature, including cash
       management, sub-recipient monitoring, unallowable costs and insufficient
       documentation for participant payments. ETA stated it is focusing its grant
       management and monitoring processes on these items to reduce and prevent
       improper payments. According to ETA, whenever deficiencies or problems are
       identified as a result of a desk review, onsite review, or an independent audit, the
       agency immediately begins working with the grantee to obtain appropriate
       corrective actions.

5. 	   Has the Department published, and met, annual reduction targets for each
       program assessed to be at risk and measured for improper payments?

       The Department published but did not meet the annual reduction targets for the
       UI benefits program and the WIA grants program. The target improper payment
       rate for the UI benefits program was 9.8 percent, but the Department reported an
       actual rate of 12.0 percent. For the WIA grants program, the target rate was 0.07
       percent; the reported actual rate was 0.3 percent.

6. 	   Did the Department report a gross improper payment rate of less than 10
       percent for each program and activity for which an improper payment
       estimate was obtained and published in the PAR or AFR?

       The Department reported an actual improper payment rate of 12.0 percent for the
       UI benefit program and 0.3 percent for WIA grant programs.

7. 	   Did the Department report information on its efforts to recapture improper
       payments?

       The Department reported information on its payment recapture efforts in the UI
       benefits program and the WIA grants program. Recovery activities and tools in
       the UI benefits program included offsets from benefits, offsets from state and
       federal income tax refunds, offsets from lottery winnings, interstate recovery

                                                   IPERA Compliance in Agency Financial Report
                                             9                   Report No. 22-12-016-13-001
                                           U.S. Department of Labor – Office of Inspector General



       agreements, repayment plans, wage garnishments, property liens, and use of
       collection agencies.

       For the WIA grants program, a review is conducted to the exact amount of
       questioned costs that are actually improper overpayments and therefore subject
       to recapture. At the conclusion of this review, the grantee is informed of the final
       determination decision and the amount it must reimburse the Department for the
       overpayment.

Other Observations

UI Strategies

Claimants who returned to work and continued to claim UI benefits are the leading
cause UI overpayments. The National Directory of New Hires (NDNH) is a tool that
states are now using to conduct cross matches to identify these claimants. However,
California, which has the highest amount of estimated improper payments, has
indicated that competing resources/resource constraints are precluding it from using
NDNH.

Another significant cause of UI program improper payments is employment separation
issues. Separation issues account for 20 percent of overpayments, and deal with
ineligibility due to claimants voluntarily quitting or being discharged from employment for
cause.

The UI program has introduced an initiative, the State Information Data Exchange
System (SIDES) to deal with separation issues. SIDES provides electronic
communication between states and employers or their Third Party Administrators to
improve timeliness and quality of separation information. According to the Department,
as of February 2012, 12 states have implemented SIDES and an additional 30 states
are in different stages of SIDES programming and testing. Although the Department is
making progress in implementing this strategy, the impact or projected impact of SIDES,
as well as other departmental strategies, are dependent on successful implementation
by states.

Anticipated Impact of Strategies

The report discusses root causes for improper payments and includes multiple and
overlapping strategies for addressing those causes. However, the initiatives did not
include cost benefit analyses or anticipated return on investment for these strategies.
We believe this information could be valuable to the Department to help it determine
which of these strategies are having the most impact in reducing improper payments.




                                                   IPERA Compliance in Agency Financial Report
                                            10                   Report No. 22-12-016-13-001
                                          U.S. Department of Labor – Office of Inspector General



Chief Financial Officer’s Response to the Draft Report

The Chief Financial Officer’s response to the draft report is included in its entirety in
Appendix D. The response has been summarized and discussed in relevant portions of
this report. Where appropriate, we made adjustments to the report based on the
response provided by the Chief Financial Officer.

Recommendations

We recommend that the Department:

1. 	   Consider methods for improving the WIA sampling methodology to provide a
       more complete estimate of improper payments, and include information on the
       limitations of the data used in the estimation of WIA overpayments in the AFR.

2. 	   Consider developing and including cost benefit and return on investment
       analyses for the various improper payment reduction strategies.

We appreciate the cooperation and courtesies that Office of the Chief Financial Officer
(OCFO) personnel extended to the Office of Inspector General during this audit. OIG
personnel who made major contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                  IPERA Compliance in Agency Financial Report
                                           11                   Report No. 22-12-016-13-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                     IPERA Compliance in Agency Financial Report
              12                   Report No. 22-12-016-13-001
               U.S. Department of Labor – Office of Inspector General




Appendices 





                       IPERA Compliance in Agency Financial Report
                13                   Report No. 22-12-016-13-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                     IPERA Compliance in Agency Financial Report
              14                   Report No. 22-12-016-13-001
                                           U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix A
Background

IPERA became law on July 22, 2010. It amended the Improper Payments Information
Act of 2002. IPERA requires that each agency periodically review and identify all
programs and activities that may be susceptible to significant improper payments. The
Act also significantly increased requirements for payment recapture efforts by
expanding the types of payments that must be reviewed and by lowering the threshold
of annual outlays that requires agencies to conduct payment recapture audit programs.

OMB issued government-wide guidance for implementation of IPERA on April 14, 2011.
The guidance updated requirements for measurement and remediation of improper
payments. Agencies are required to report on improper payments, and inspectors
general are required to review agency reporting.

The Department designated the UI benefit program and the WIA grant program as
being at risk of making significant improper payments.

UI Benefit Program

The UI program is designed to provide benefits to individuals out of work, generally
through no fault of their own, for periods between jobs. In order to be eligible for
benefits, jobless workers must show that they were separated from work through no
fault of their own, and met minimum length of time and wage requirements before they
were separated. The program is administered at the state level, but is funded by both
state and federal monies.

The UI program represents one of the largest benefit payment programs in the United
States. A total of nearly $318 billion dollars of benefit payments were paid for the three-
year period ending September 30, 2010. Of this amount, $126 billion was for federally-
funded emergency benefits.

WIA Grant Program

WIA is a federally funded grant program designed to provide employment and training
services to assist eligible individuals in finding and qualifying for meaningful
employment and to help employers find the skilled workers they need to compete and
succeed in business. In FY 2011, appropriated funds for the WIA Adult, Dislocated
Worker and Youth programs totaled about $3.2 billion.




                                                   IPERA Compliance in Agency Financial Report
                                            15                   Report No. 22-12-016-13-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                     IPERA Compliance in Agency Financial Report
              16                   Report No. 22-12-016-13-001
                                         U.S. Department of Labor – Office of Inspector General



                                                                                Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

Our objective was to review the Improper Payments Information section in the FY 2011
AFR and determine whether the Department met all requirements of IPERA. In
addition, we evaluated the Department’s (1) accuracy and completeness of reporting
and (2) performance in reducing and recapturing improper payments.

Scope

The Department, in accordance with IPIA, as amended by IPERA, was required to
include a report on improper payments in its FY 2011 AFR. OIG conducted a review in
accordance with guidance issued by OMB Memorandum M-11-16 to determine whether
the Department is in compliance with IPERA.

We performed our review November 2011 through February 2012 in Washington, DC.
We conducted our review in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspections.

Methodology

To accomplish our objectives, we:
   •	 Reviewed the Department’s FY 2011 Annual Financial Report and accompanying
      material required by OMB on the agency website for compliance with IPERA  
   •	 Reviewed the program specific risk assessments that confirms with Section 3321
      of Title 31 U.S.C. 
   •	 Reviewed and evaluate the Department’s information on its efforts to recapture
      improper payments
   •	 Reviewed and ensured the Department published improper payment estimates
      for all program and activities identified as susceptible to significant improper
      payments under its risk assessments (UI and WIA).
   •	 Reviewed prior OIG and GAO audit reports related to Unemployment Insurance,
      specifically any reports dealing with Improper Payments or IPERA.
   •	 Reviewed the published programmatic corrective action plans in the AFR and
      any additional supplemental
   •	 Identified and reviewed applicable policies, regulations, other applicable
      documents related to the reporting requirements under IPERA to gain an
      understanding of the reporting requirements for both the Office of Inspector
      General (OIG) and the Department
   •	 Interviewed key personnel regarding the agency’s plan to meet the reduction
      targets and conduct recapture audits for UI and WIA 
   •	 Obtained supporting documents for the key figures in the report



                                                 IPERA Compliance in Agency Financial Report
                                          17                   Report No. 22-12-016-13-001
                         U.S. Department of Labor – Office of Inspector General



Criteria

OMB Memorandum 11-04 

OMB Memorandum 11-16 





                                 IPERA Compliance in Agency Financial Report
                          18                   Report No. 22-12-016-13-001
                                   U.S. Department of Labor – Office of Inspector General



                                                                          Appendix C
Acronyms and Abbreviations

A-133 reports         OMB Circular A-133 Single Audit Act reports
AFR                   Agency Financial Report
BAM                   Benefit Accuracy Measurement
EB                    Extended Benefits
ES                    Employment Service
ETA                   Employment and Training Administration
EUC08                 Emergency Unemployment Compensation
FAC                   Federal Additional Compensation
FECA                  Federal Employees’ Compensation Act
FY                    Fiscal Year
GAO                   Government Accountability Office
IPERA                 Improper Payment Elimination and Recovery Act of 2010
IPIA                  Improper Payments Information Act of 2002
NDNH                  National Directory of New Hires
OCFO                  Office of the Chief Financial Officer
OIG                   Office of Inspector General
OMB                   Office of Management and Budget
OWCP                  Office of Workers’ Compensation Benefits
PAR                   Performance and Accountability Report
SIDES                 State Information Data Exchange System
UC                    Unemployment Compensation
UI                    Unemployment Insurance
WIA                   Workforce Investment Act




                                           IPERA Compliance in Agency Financial Report
                                    19                   Report No. 22-12-016-13-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                     IPERA Compliance in Agency Financial Report
              20                   Report No. 22-12-016-13-001
                                U.S. Department of Labor – Office of Inspector General



                                                                       Appendix D
OCFO Response to Draft Report




                                        IPERA Compliance in Agency Financial Report
                                 21                   Report No. 22-12-016-13-001
U.S. Department of Labor – Office of Inspector General




        IPERA Compliance in Agency Financial Report
 22                   Report No. 22-12-016-13-001
                                         U.S. Department of Labor – Office of Inspector General



                                                                                Appendix E
Acknowledgements

Key contributors to this report were Joe Donovan, Katherine Gers, and Orville Hylton.




                                                 IPERA Compliance in Agency Financial Report
                                          23                   Report No. 22-12-016-13-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:     1-800-347-3756
         202-693-6999

Fax:      202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor 

         200 Constitution Avenue, N.W. 

         Room S-5506             

         Washington, D.C. 20210 

